APPENDIX A
Report of Expert Sean Fulop regarding the tampering of CDs and cut and paste of
swear-in of witnesses Paul WThorndal and Tejinder Cooner. These were defendants
in Ninth Circuit case 13-17498.

DECLARATION OF SEAN A. FULOP
I, Sean A. Fulop, declare as follows:

INTRODUCTION
1 hold the position of Professor with the Department of Linguistics at California State University
Fresno, a position I have held since 2013. 1 have been employed at CSU Fresno continuously since
2004. My academic and professional areas of specialization include Phonetics and Speech Signal
Processing, which will be applied to the questions in the matter at hand. I am a Full Member of the
Acoustical Society of America, where I serve as an associate editor for the society Journal. I
published a book Speech Spectrum Analysis (Springer, 2011) in which a number of advanced
techniques for the analysis of speech sounds were detailed. My complete Curriculum Vitae is
attached to this declaration.

RETENTION
I was retained in the present matter by Sanjay Bhardwaj on May 23, 2019.1 was paid a $2,000
retainer, and a further $2,000 for completion of my analysis and this document. My compensation is
not dependent on my opinions or the outcome of any legal proceedings.

QUESTIONS
Mr. Bhardwaj presented me with recordings of a court proceeding dated 1-18-2017 which he
suspects have been tampered with, since they contain dialogue not in accord with his recollection of
the proceeding. In particular, the recorded portions containing the swearing-in of two witnesses are
suspected to have been inserted into the recording at some point, since it is alleged that neither
witness was in fact sworn in.
This matter therefore presents the following questions:
(1) What is the objective evidence, if any, that the swearing-in of the witness Paul Thorndal
heard in the recording was inserted in an act of tampering? This pertains to the spoken
oath from the court officer, as well as the witness response "I do.”
(2) What is the objective evidence, if any, that the swearing-in of the witness Tejinder Cooner
heard in the recording was inserted in an act of tampering? This pertains to the spoken
oath from the court officer, as well as the witness response "I do.”

OPINIONS
I have formed the following opinions based on my analysis of the recordings, the methods of which
are detailed below.
(1) During the swearing-in of witness Paul Thorndal, the court clerk utterance which
presumably concludes "...truth and nothing but the truth" is obscured by two loud sounds.
The second of these is similar to the sound of a button being depressed as on a recording
device. This sound clearly cuts off the clerk's speech, so that after the first syllable of the
word "nothing," there is no more speech of the clerk in the recording whatsoever. The
(presumed) button press is the only recorded sound there.
(2) The witness Thorndal then apparently says "I do" just 0.75 second following the last syllable
from the clerk. If the clerk had actually finished saying "nothing but the truth" it would have
taken considerably longer than 0.75 seconds to get to the witness response. By imitating
the speaking rate of the court clerk in the recording, I determined that it would take about
1.5 seconds to say "nothing but the truth", and then there would normally be a further
pause before a witness response.
(3) Immediately at the conclusion of Thorndal's statement there is another (presumed) buttonpress sound, which is followed by the court clerk statement "Please be seated" just 0.15
second later.
(4) The segment of the recording containing this swearing-in is at a low audio volume in
comparison to the rest of the recording; moreover, it is cluttered and obscured by a series of
relatively loud sounds which mostly sound like shuffling of paperwork. This is the only
portion of the court proceedings which was observed to contain these sounds at such
volume and over such a time frame.
(5) During the swearing-in of witness Tejinder Cooner, the court clerk utterance which
concludes "...truth and nothing but the truth" is obscured by the same type of sound that
cuts off the court clerk in the Thorndal swearing-in; apparently the sound of a button press
occurs over top of the final word "truth". The (presumed) button press takes up the entire
duration of the word "truth”, culminating in a loud click which coincides with the final
consonant, making it impossible to observe the final consonant.
(6) The witness Cooner then states "I do" 8 hundredths of a second later. Such an extremely
short response time does not sound natural in the context of the proceeding.
(7) This is followed by the court clerk statement "Please be seated", after which there appear to
be two more (presumed) button-press sounds in close succession.
(8) The segment of the recording containing this swearing-in is at an exceedingly low audio
volume in comparison to the rest of the recording, and is nearly inaudible without high
audio gain.

METHOD OF ANALYSIS
The analysis was conducted on two audio recordings from the court proceeding of 1-18-2017 that
were furnished to me by Mr. Bhardwaj. One file contained the swearing-in and some testimony
from Paul Thorndal, and the other contained the swearing-in and some testimony from Tejinder
Cooner. Mr. Bhardwaj showed me a retainer agreement and report from JSM Studios, independent
experts who had converted the proprietary For The Record software sound files into the '.wav'
sound file format so that they would be able to be analyzed. After verifying that the converted files
sounded identical to the original files in For The Record format, I then analyzed the sound files using
the free open-source software Praat, which has been widely used in the speech science community
for the past 19 years or so. The files were analyzed at different time scales using a combination of
close listening and visual waveform and spectrographic analysis.

FINDINGS
By the methods disclosed above I made the following findings:
(1) The statement of the oath from the court clerk for the swearing in of Paul Thorndal shows
strong evidence of tampering; in particular the presumed conclusion of the statement is cut
off midway through a word by a sound which is likely a button-press on a
recording/playback device.
(2) The statement "I do" from Thorndal shows evidence of tampering; in particular it occurs too
quickly after the court clerk statement, and it is followed immediately by a sound which is
likely a button-press on a recording/playback device.
(3) The segment of the recording comprising the swearing-in of Mr. Thorndal is at a much
lower audio volume than the rest of the recording, and moreover it is obscured by a series
of loud sounds not found throughout the rest of the recording. This adds to the body of
evidence that it has been tampered with.
(4) The statement of the oath from the court clerk for the swearing in of Tejinder Cooner shows
evidence of tampering; in particular the statement ends with another likely button-press
sound.
(5) The statement "I do” from Cooner shows evidence of tampering; in particular it occurs too
quickly after the statement from the court clerk.
(6) The statement "Please be seated" from the court clerk to Cooner shows evidence of
tampering; in particular it is closely followed by two more likely button-press sounds.
(7) The segment of the recording comprising the swearing-in of Mr. Cooner is at an exceedingly
low audio volume compared to the rest of the recording, adding to the body of evidence that
it has been tampered with.
(8) While there is no way to definitely prove that the sounds I have identified as "button-press"
in fact are due to a button being depressed on a recording or playback device, the
probability of so many similar sounds occurring due to chance during a court proceeding at
the precise boundaries of various statements and nowhere else is incalculably small.

CONCLUSIONS
(1) The proposition that the segment of the recorded court proceeding involving witness Paul
Thorndal has been tampered with has been established with 100% certainty, with finding (1)
above serving as the proverbial "smoking gun." Usually, evidence of tampering with a voice
recording is more subtle, but here we have a situation where a part of someone's sentence was
literally cut off during some clumsy editing. 1 leave it to others to determine exactly what
happened, since it is impossible to know if pieces have been pasted in or deleted somehow, but
some amount of cutting, pasting and/or re-recording from a separate playback has certainly
been done to the segment of the recording which contains the swearing in of the witness.
(2] The proposition that the segment of the recorded court proceeding involving witness Tejinder
Cooner has been ta mpered with has been established to a high degree of likelihood. Once again
1 dare not speculate about exactly what has been done to the recording, but it is extremely
likely that cutting, pasting and/or re-recording from a separate playback has been done to the
segment of the recording which contains the swearing in of the witness.
I declare under penalty of perjury that the foregoing is a true and correct representation of my
research, observations and analysis in the matter at hand.

Date:

(Q -20(0

Sean A. Fulop

Curriculum Vitae
Sean A. Fulop
Business Address:
Department of Linguistics
Calfornia State University, Fresno
5245 N. Backer Ave. M/S PB92
Fresno, CA 93740-8001
sfulop@csufresno.edu
559 278-4896
Degrees
Ph.D. Linguistics 1999
University of California Los Angeles.
M.A. Linguistics 1997
University of California Los Angeles.
M.A. Linguistics, specialization in Phonetics, 1994
University of Calgary, Calgary, Canada.
B.Sc. Physics, minor in Linguistics, 1991
University of Calgary, Calgary, Canada.
Experience
Professor of Linguistics, California State University
Fresno
and Director of the Cognitive Science Program.
Consulting in forensic and acoustic phonetics.
2009-2013 Associate Professor of Linguistics, Cali­
fornia State University Fresno.
2005-2009 Assistant Professor of Linguistics, Cali­
fornia State University Fresno.
2004-2005: Full-time Lecturer with the Dept, of
Linguistics, California State University Fresno.
2000-2004: Visiting Assistant Professor with the
Dept, of Linguistics (and Computer Science by
courtesy) at the University of Chicago.
1999-2000: Full-time (Temporary) Lecturer with
the Dept, of Linguistics and Language Develop­
ment, San Jose State University.

Publications
Books
Barbara Birch and S. A. Fulop (To appear in
2020) English L2 Reading: Getting to the
Bottom. New York: Routledge Education.
(2011) Speech Spectrum Analysis.
Springer.

Berlin:

(2004) On the Logic and Learning of Language.
Victoria, British Columbia: TYafford.
Papers in Refereed Journals
Fulop and Lloyd Rice (monthly since 2008)
“Reviews of Acoustical Patents.” Journal
of the Acoustical Society of America.
Fulop and Hannah Scott (2019) “Vowel Sys­
tem Sandbox: Complex system modelling
of language change.” Journal of Open Re­
search Software, 7(1).
Flynn, D. and S. A. Fulop (2014) “Acous­
tic phonetic features in Athabaskan sound
change.” Diachronica 31(2):192-222.
Fulop and Nick Chater (2013) “Why formal
learning theory matters for cognitive sci­
ence.” Topics in Cognitive Science 5:3-12.
Fulop and Nick Chater (2013) “Learnability
theory.” Wiley Interdisciplinary Reviews:
Cognitive Science 4:299-306.
Flynn, D. and S. A. Fulop (2012) “Dentals are
grave.” Canadian Acoustics 40(3):20-21.
(2010) “Grammar induction by unification of
type-logical lexicons.” Journal of Logic,
Language and Information 19:353-381.
(2010) “Accuracy of formant measurement for
synthesized vowels using the reassigned
spectrogram and comparison with linear
prediction.” Journal of the Acoustical So­
ciety of America 127(4):2114-2117.
(2007) “Phonetic applications of the timecorrected instantaneous frequency spectro­
gram.” Phonetica 64:237-262.

Sean A. Fulop

2

(2007) “Learnability of type-logical grammars.”
Research on Language and Computation
5(2):159-179.

(1996) “An acoustic investigation of the tongueroot contrast in Degema vowels.” UCLA
Working Papers in Phonetics 93:13-46.

Fulop and Kelly Fitz (2007) “Separation of
components from impulses in reassigned
spectrograms.” Journal of the Acoustical
Society of America 121(3):1510-1518.

(1996) “Thematic proto-roles and the seman­
tics of control.” UCLA Working Papers in
Syntax and Semantics 1:77-88.

Fulop and Kelly Fitz. (2006) “Algorithms
for computing the time-corrected instanta­
neous frequency (reassigned) spectrogram,
with applications.” Journal of the Acousti­
cal Society of America 119(1):360-371.

(1994) “Acoustic correlates of the fortis/lenis
contrast in Swiss German plosives.” Cal­
gary Working Papers in Linguistics 16:5563.

Papers in Refereed Volumes or Proceedings

(2005) “Semantic bootstrapping of type-logical
grammar.” Journal of Logic, Language,
and Information 14(l):49-86.

Fulop and R. A. Wright (Forthcoming) “Acous­
tic analysis of clicks.” In B. Sands (ed.)
The Handbook of Clicks. Brill.

Fulop, P. Ladefoged, F. Liu and R. Vossen.
(2003) “Yeyi clicks: Acoustic description
and analysis.” Phonetica 60(4):231-260.

(2018) “A survey of proof nets for substructural
logics.” In B. Gyuris et al. (eds.) K + K
= 120, http://clara.nytud.hu/~kkl20/.

Fulop and Michael Dobrovolsky. (1999) “An
instrumental analysis of Sharchhop obstru­
ents.” Linguistics of the Tibeto-Durman
Area 22.1:59-70.

Fulop and D. Kephart (2015) “Topology of lan­
guage classes.” Proceedings of the 14th
Meeting on the Mathematics of Language,
pp. 26-38.
(2012) “Phonetics and Speech Processing,”
Encyclopedia of the Sciences of Learning,
Springer.

Fulop, Ethelbert Kari, and Peter Ladefoged.
(1998) “An acoustic study of the tongue
root contrast in Degema vowels.” Phonet­
ica 55(l-2):80-98.
Papers in Unrefereed Journals
Fulop, Kelly Fitz and Douglas O’Shaughnessy
(2011) “Signal Processing in Speech and
Hearing Technology.”
Acoustics Today,
July.
Fitz, Kelly and S. Fulop (2009) “A unified the­
ory of time-frequency reassignment.” arXiv
preprint.

(2012) “Mathematical Linguistics and Learn­
ing Theory,” Encyclopedia of the Sciences
of Learning, Springer.
Taniguchi, M., J. Setter, S. Fulop and C. Golston (2011) “Assessing intonation in the
spontaneous and scripted speech of native
and non-native speakers of English.” Pro­
ceedings of International Congress of Pho­
netic Sciences XVII.

Fulop and Kelly Fitz (2006) “A Spectrogram
for the 21st Century.” Acoustics Today
2(3):26-33.

Fulop and Sandra Ferrari Disner (2007) “The
reassigned spectrogram as a tool for voice
identification.”
Proceedings of Interna­
tional Congress of Phonetic Sciences XVI
pp. 1853-1856.

Fulop, Ethelbert Kari, and Peter Ladefoged.
(1997) “Further analysis of Degema vowel
harmony.” UCLA Working Papers in Pho­
netics 95:1-17.

(2003) “Discovering a new class of languages.”
In R. T. Oehrle and J. Rogers (eds.) Pro­
ceedings of Mathematics of Language 8.
Available on the MOL website.

3

Sean A. Fulop

Neuvel, Sylvain and S. A. Fulop (2002) “Un­
supervised Learning of Morphology With­
out Morphemes.” In Proceedings of the
Workshop on Morphological and Phonolog­
ical Learning 2002, Association for Compu­
tational Linguistics.
Fulop and Edward L. Keenan. (2002) “Compositionality: A Global Perspective.” In
Fritz Hamm and Ede Zimmermann (eds.)
Semantics. Linguistische Berichte, Sonderheft 10, Helmut Buske Verlag.
(2001) “Learnability of type-logical grammars.”
In L. Moss and R. T. Oehrle (eds.) Proceed­
ings of the joint meeting of the 6th Confer­
ence on Formal Gramm,ar and the 7th Con­
ference on Mathematics of Language, Elec­
tronic Notes in Theoretical Computer Sci­
ence 53, Elsevier.
Papers in Unrefereed Proceedings
(2017) Helffrich, J. and S. A. Fulop. “The
phase-locked loop as a tool for signal analy­
sis.” Proceedings of Meetings on Acoustics
vol. 30.
(2016) Deng, Jie and S. A. Fulop. “Interactions
between stop aspiration and tonal pitch in
Weihai Chinese.” Proceedings of Meetings
on Acoustics vol. 26.
(2014) Fulop and Ron Warren. “An acous­
tic analysis of advanced tongue root har­
mony in Karaja.” Proceedings of Meetings
on Acoustics vol. 21.
(2014) Fulop and Sylvain Neuvel. “Networks
of morphological relations.” International
Symposium on Artificial Intelligence and
Mathematics 2014.
(2013) Fulop and Youngwook Kim. “Speaker
identification made easy with pruned reas­
signed spectrograms.” Proceedings of Meet­
ings on Acoustics vol. 19.
(2011) Fulop and Sandra Ferrari Disner. “Ex­
amining the voice bar.” Proceedings of
Meetings on Acoustics vol. 14.

(2009) Fulop and Sandra Ferrari Disner. “Ad­
vanced time-frequency displays applied to
forensic speaker identification.” Proceed­
ings of Meetings on Acoustics vol. 6.
(2008) Fulop and Chris Golston. “Breathy and
whispery voicing in White Hmong.” Pro­
ceedings of Meetings on Acoustics vol. 4.
(2007) “Mathematical results on syntactic
learnability.” In J. Cihlar, A. Franklin, D.
Kaiser, and I. Kimbara (eds.) Proceedings
of the 39th, Conference of the Chicago Lin­
guistic Society, Chicago Linguistic Society.
Patents
U.S. Patent No.
8,036,891 METH­
ODS OF IDENTIFICATION US­
ING VOICE SOUND ANALYSIS,
filed with the U.S. Patent Office on June 25,
2008; issued Oct. 11, 2011. Inventor: Sean
Fulop, assignor to California State Univer­
sity Fresno.
Theses
(1999) On the Logic and Learning of Language.
PhD dissertation, University of California
Los Angeles.
(1997) An Acoustic Investigation of the Tongue
Root Contrast in Degema Vowels. MA
Thesis, University of California Los Ange­
les.
(1994) Acoustic Manifestations of Tension in
Plosives. MA Thesis, University of Calgary.
Book Reviews
(2008) Book notice for Mathematics of Lan­
guage, by Marcus Kracht. e-Language.
(1994) Review of Papers in Laboratory Phonol­
ogy II: Gesture, Segment, Prosody, Gerard
J. Docherty and D. Robert Ladd (eds.).
Language Quarterly 32(1-2):119-122.

4

Sean A. FuJop

Conference presentations (no proceedings)

Speech Communication, MIT, Cambridge,
MA, June 2004.

Invited papers
Invited to teach a one-week course Linguistics
for Scientists at the 19th European Sum­
mer School for Logic, Language and Infor­
mation at Trinity College, Dublin, Ireland,
August 2007.
“Mathematical results on syntactic learnability.” Invited paper presented at the 39th
Annual Conference of the Chicago Lin­
guistic Society, The University of Chicago,
April 2003.
Fulop and Edward L. Keenan.
“Compositionality: A Global Perspective.”
Pre­
sented at the Symposium on Compositionality, Ninth European Summer School in
Logic, Language, and Information, Univer­
sity de Provenge, Aix-en-Provenqe, France,
August 11-22 1997.
Papers at Refereed Conferences
Fulop and C. Golston “If segments are real,
what are they?” Paper presented at the
CUNY Conference on the Segment, Jan­
uary 2012.
Disner, S. and S. Fulop “Individuating vocal
characteristics with the reassigned spectro­
gram.” Paper presented at the 10th Bien­
nial Conference, International Association
of Forensic Linguists 2011.
Fulop, C. Golston and P. Yang “White Hmong
whispery voiced plosives and the features
[voice] and [aspirated].” Paper presented at
the Linguistic Society of America meeting,
Albuquerque, NM, January 2006.
Howe, Darin and S. A. Fulop. “Acoustic fea­
tures in Northern Athabaskan.” Paper pre­
sented at the Linguistic Society of America
meeting, San Francisco, CA, January 2005.
“Speech spectrography beyond the Fourier
transform.”
Paper presented at From
Sound to Sense: 50+ Years of Discoveries in

Papers at Unrefereed Conferences
Fulop and Christine Shadle “Automated for­
mant tracking using reassigned spectro­
grams.” Presented at the 175th meeting
of the Acoustical Society of America, Min­
neapolis, MN, May 2018.
Fulop and Hannah Scott “Modeling the changes
of natural vowel systems.” Presented at the
2015 meeting of the American Association
for the Advancement of Science, San Jose,
CA, Feb. 2015.
Ron Warren and S. A. Fulop “The merged
vowel of PIN and PEN in Bakersfield, CA.”
Presented at the 167th meeting of the
Acoustical Society of America, Providence,
RI, May 2014.
Disner, S., S. A. Fulop and F.-Y. Hsieh “The
fine structure of phonation as a biometric.”
Journal of the Acoustical Society of Amer­
ica 128(4 pt. 2):2394 (abstract). Presented
at the 2nd Pan-American/Iberian Meeting
on Acoustics, Cancun, Mexico, Nov. 2010.
“What’s wrong with these formants?” Journal
of the Acoustical Society of America 121(5
pt. 2) (abstract only). Paper presented at
the 153rd meeting of the Acoustical Society
of America, Salt Lake City, UT, June 2007.
Fulop and Kelly Fitz “Using the reassigned
spectrogram to obtain a voiceprint.” Jour­
nal of the Acoustical Society of America
119(5 pt. 2):3337 (abstract only).
Pa­
per presented at the 151st meeting of the
Acoustical Society of America, Providence,
RI, June 2006.
“Separation of formants from glottal im­
pulses in high-resolution spectrograms us­
ing higher-order short-time Fourier trans­
form phase derivatives.” Journal of the
Acoustical Society of America 116(4 pt.
2):2482 (abstract only). Paper presented

Sean A. Fulop

at the 148th meeting of the Acoustical So­
ciety of America, San Diego, CA, November
2004.
Fulop and Kelly Fitz.
“Digital algorithms
for computing the time-corrected instanta­
neous frequency (reassigned) spectrogram,
with applications.” Journal of the Acous­
tical Society of America 116(4 pt. 2):2582
(abstract). Paper presented at the 148th
meeting of the Acoustical Society of Amer­
ica, San Diego, CA, November 2004.
“Substructural logic as Universal Grammar.”
Bulletin of Symbolic Logic 10(3):441-2 (ab­
stract only). Paper presented at the Asso­
ciation for Symbolic Logic Spring Meeting,
April 22-25 2004, Chicago.
“Cheating Heisenberg: Achieving certainty in
wideband spectrography.” Journal of the
Acoustical Society of America 114(4 pt.
2):2396-7 (abstract). Paper presented at
the 146th meeting of the Acoustical Soci­
ety of America, Austin, Texas, November
2003.
“Semantic bootstrapping of type-logical gram­
mar.” Presented at the Computational Lin­
guists of Chicago workshop, University of
Illinois at Chicago, Aprih20, 2002. An early
version was presented at the GRACQ learn­
ing workshop, University of Nantes, June
30-July 02 2001.

5

Fulop and Michael Dobrovolsky. “An instru­
mental analysis of Sharchhop obstruents.”
Presented at the 3rd Himalayan Languages
Symposium, University of California Santa
Barbara, July 18-20 1997.
Fulop and Patricia A. Keating. “Pronuncia­
tion variability in the Switchboard corpus.”
Poster presented at the Third Joint Meet­
ing of the Acoustical Society of America
and the Acoustical Society of Japan, Hon­
olulu, Hawaii, December 2-6 1996.
Fulop, Ethelbert Kari, and Peter Ladefoged.
“Articulatory modeling of so-called ad­
vanced tongue root vowels.” Poster pre­
sented at the 129th Meeting of the Acous­
tical Society of America, Washington, DC,
May 30-June 3 1995.
Fulop, Ethelbert Kari, and Peter Ladefoged.
“Articulatory modeling of so-called Ad­
vanced Tongue-Root vowels.” Paper pre­
sented at the 26th Annual Conference on
African Languages, UCLA, March 24-26
1995.
“Acoustic correlates of the fortis/lenis contrast
in Swiss German plosives.” Versions of
this paper were presented at the Alberta
Conference on Language, Banff, Canada,
November 1993, and at the 126th Meeting
of the Acoustical Society of America, Den­
ver, Colorado, October 4-8 1993.

“On the logic and learning of language.” Pa­ Professional activities
per presented at the Van Gogh Meeting,
Session chair at Acoustics T7 Boston, June 2017.
Utrecht Institute of Linguistics, April 2122 1999.
Appointed liaison from the Association for Symbolic
“Algebraic models for substructural sequent
Logic to the Linguistics section of A A AS, as of
systems.” Paper presented at the Twenty
2014.
Third Holiday Symposium:
Algebraic
Guest Editor for Annals of Mathematics and Artifi­
Structures for Logic; January 8-12, 1999
cial Intelligence, 2014.
New Mexico State University, Las Cruces.
“Semantics of aspect and tense in Navajo.” Pa­
per presented at the UCLA Workshop on
Tense and Aspect, Lake Arrowhead Confer­
ence Center, California, May 16-19 1998.

Guest Editor for Topics in Cognitive Science and
member of the Editorial Board; topic on Formal
Learning Theory Relevant to Cognitive Science
Jan. 2013.

6

Sean A. Fulop

Associate Editor (2011-2014) for the Journal of the
Acoustical Society of America Acoustic Signal
Processing section.

History of English

Associate Editor (since July 2007) for the Journal
of the Acoustical Society of America Patent Re­
views section.

General Phonetics

Patent reviewer (as of Nov. 2004) for the Journal of
the Acoustical Society of America.

Fall 2017

Advanced Phonetics
Linguistics and Reading
Spring 2017

Special session organizer for “Frontiers of spectrum
analysis.” at the 153rd Acoustical Society of
America meeting (2007) in Salt Lake City.

Historical Linguistics

Referee for numerous journals including: Language;
Journal of the Acoustical Society of America;
Journal of the International Phonetics Associ­
ation; Journal of Phonetics; Signal Processing;
Studia Logica.

Linguistics for Teachers

Foundations of Cognitive Science

Fall 2016
General Phonetics
Advanced Phonetics

Memberships
American Association for the Advancement of Sci­
ence.
Acoustical Society of America.
FoLLI (European Association for Logic, Language,
and Information).

Linguistics for Teachers
Spring 2016
General Phonetics
Intro to Cognitive Science
Historical Linguistics

International Phonetic Association.

Fall 2015

Cognitive Science Society.

Linguistics for Teachers

Association for Symbolic Logic.

Advanced Phonetics

Linguistic Society of America.

General Phonetics

Courses taught

Spring 2015

Spring 2019

Historical Linguistics

General Phonetics

Intro to Cognitive Science

Linguistics and Reading
Fall 2018
General Phonetics
Advanced Phonetics

May, 2019

APPENDIX B
Report of second forensic expert Kent Gibson. Second expert corroborates that the
swear in is cut and pasted.

Regarding a "ForTheRecordBcourt
recording in the case of
Sanjay Bhardwaj

FORENSIC AUDIO
DECLARATION

DECLARATION OF KENT GIBSON
Analysis requested by:

A FORENSIC AUDIO EXAMINER
forensicaudio.org

Sanjay Bhardwaj
511N Orange DR, LA CA 90068
323-851-9900

1, Kent Gibson, state the following, of which I have personal knowledge:
I am the founder of Forensicaudio.org which is a 28 year old company based in Los
Angeles, California. Regular clients include the US Secret Service, the FBI, DO], USPS,
IRS, LA Superior Court, LA County Sheriff, LA Public Defender's Office, Pasadena PD
Homicide Assaults, Santa Clara Sheriffs Dept, Santa Rosa County, San Bernardino
County Sheriffs Department and many private law offices and various other
courtroom representatives. I am a Certified Audio/Video Forensic Examiner for LA
Superior Court, on the approved expert witness list, and chosen by the LA County
Sheriff as a contract examiner for the county.
Forensicaudio.org specializes in examining and preparing audio and visual
evidence for use during litigation, Additionally, Forensic Audio enhances recordings,

I iJltTlunilion ofjCciitjnih^pn - f oreri'.icAV com

1

does facial recognition, authenticates recordings, performs voice identification and
prepares certified transcripts and sworn declarations.
IN THIS CASE I examined a "ForTheRecord” (FTR) recording made in court
on January 18,2017 in a case involving Mr. Sanjay Bhardwaj. A FTR recording has
up to 8 channels of audio presented in a mix matrix where any channel can be
individually controlled. Typically one channel is reserved for the judge, one for the
witness, one for each attorney, etc. In this analysis, ALL of the channels were left at
the median a.k.a. normal or zero position, not causing an increase or decrease of the
volume on any channel.
I then proceeded to take measurements, mostly of time and/or volume as
events proceed during the trial. In particular, there are two ''swearing in" sections
in this file that 1 focused on. The first is the swearing in of Paul Thomdal: Below is a
screenshot of the markers for four sections of interest:

Region one is 3.790 sec. of Thornda] from his original position asking permission to
leave something at his seat The screenshot below shows the spectrogram of that
section and a grid of loudness exhibited an integrated loudness of-39.9 LUFS
[loudness units full scale). Numbers closer to zero are louder.

I - Declaration of Kent Ciib ^n - Furen ,icAV.com

2

Wtwtfonr. Statist c&

p

>

• -T'X

r-

*■

9

o

0

9

P

P

0
I

0

:

t *

9
0

i

Region 2, the Court Clerk reads the "do you swear, etc." text to the witness. The
duration is 8.926 sec and shows an integrated loudness of -39 LUFS, approximately
the same as the previous section.
I

WavefwTi Statist 9s

;
tv-

e

0

9

9

0
0

p

:

p

P
P

|

iKxhr itiun nf Rj.nl CiiKtn_I <»t»n icA V.cum

3

Region 3, the witness says "I do". The duration is very short -1.412 sec and shows
an integrated loudness of -41.6 LUFS, lower volume than the previous section.

©

Waveform Statlslcs

* r

t

r ■ i- l
-.

\ 'f*

1

.

.jf
l*

> .■

. '■ -

e

< .1-i

*

.-J Hi-'.

t

.

t

»«

M

i i

:

. i

♦

. f

-

•

> ■

1 it t

* v ♦

•>

i*<

I

1 f • 1b

i

i. .J-

■1

■1t

t

4* 1b

1h

,l i
t

V

■

Ml
ih* ■
-III

”

1

»>

M

i

t
i

I

-H

r* ♦

r, t

.ft

t

'h” 1*- 1 F r I ’ '

.

■ fc •

/ » *»

I

u

i*

a

*-

K >1

I

The next is Region 5, tire Court Clerk says "please be seated." Only 0.209 seconds
after the witness says "I do”.

| - Pccljrjuon of Kent Cith^on jorett tcAV com

4

1

Waveform Statistic*
; i t

b

r\

J.
r

*
*

i i

*

L*t ,
„r1

*

' t;

♦

1

»

■3?

*

• I*

*

' • ![

t

■ ’ 1

4,

9

♦

11

t •

,

i

" , ,

9

♦
X

I

X

The second section of the court recording is the swearing in of Tajinder Koonen
Below is a screenshot of the markers for four sections of interest;

Region IB is 11.1640 sec. of the Court Clerk reading the sweari ng in text. The
screenshot below shows that section and a grid of loudness which is significantly
softer than the previous swearing in at an Integrated Loudness of -64 LUFS.

| - Declaration of Kent Gih;.<m_TorwwcAV com

5

i,. *•

t

*
♦

*

t

*

9

t

t

*

In

:

!

t
t

*
M

Unlike the previous witness, we do not hear Kooner sav "1 do" at all and in its
place is a loud mie sound. Then the Court Clerk says "State and spell your first and
last name for the record" on section 3B. The volume in Section 3B is significantly
louder than in IB, and of a much different, clearer voice. (Integrated loudness of 56.3 LUFS,

j - Dy-chr.:Hon of Kent Gibson_toranueAV.com

6

Section 4B (7.397 seconds) is the prosecuting attorney thanking Deputy Kooner,
where the overall volume returns to a more normal level of -40.4 LUFS Integrated
loudness.

w*¥*<orm

\
\ *
^

t

♦

t

f

t

t

♦

♦

9

• ■1 ■ v

f
ii

I * IX-i lar.t.'n ot Kem (ith .n

f o:-rMcAV.com

7

CONCLUSION: The differences in the swearing in between these two witnesses is
troubling as it could indicate that some editing was done in this recording.
Generally it is thought that this recording system is "Edit Proof', however in
discussions with technical support at "ForTheRecord" Tech experts indicated that
editing is possible.
I hereby declare under penalty of perjury under the laws of the State of
California that the foregoing is true and correct to the best of my knowledge, and
that this Declaration was executed on the 17th day of August 2017.

Kent
Gibson

Digitally signed by Kent Gibson
DN: cn=Kent Gibson, o=Forensic
Audio, ou=Sounde$ign,
email=kent@kentgibson.com,
c=US
Date: 2017.08.17 15:48:56 -08'00'

Kent Gibson - Forensic Audio
This pdf of this document is digitally signed and certified and cannot be
altered.

- Declaration of Kent Otbson - FmrmicAV.Com

8

APPENDIX C
Report from Forensic Expert Kent Gibson on comparison of CDs obtained from
court for the same date 1.18.17. The expert concludes they are different and clerk's
inital testing is removed, which identifies which channel or mic belongs to whom.
Court changes a court document without any notice or consent from parties. Part of Record.

KENT

GIBSON
Foren sic A V .com

Phone:323-851-9900 kent@kcn(gibson.com

511 North Orange Drive, Los Angeles, CA 90036

Regarding a "ForThcRceord* court recording in the case of Sanjay Bhardwaj

Two CD’s were provided by the court containing FTR recordings,
I ran comparison MD5 and SHA-1 checksums on the first file on each disk.
THESE DISKS ARE NOT IDENTICAL.
1" Disk 1*' file Courtroom I 20170118-0928 01d27l6d3389d290 I MB
MD5 Checksum: 2AAD936CF345AAEE6EFI5F2D79F22E9C
SHA-1 Checksum: BB4E13E64064280A0D790BIEEE4CD7C7580FAFA8
2nd Disk (1/18/17) 1** File Courtroom 1_20170118-1005-01 g271726 4,873KB
MDS Checksum: GFEF895FB0F970B54F734C4463548E73
SHA-1 Checksum: 5DB78958B7715FCAF6096EFAE33552E29DD963FF
I also listened to the beginning of each disk and they are different. The firs t disk contains a sect ion where
the court assistant scratches and checks each microphone in the court. The most recent disk does not
contain this “rnic check” section,
I hereby declare under penally of perjury under the laws of the State of California that the foregoing is true
and correct to the best of my knowledge, and that this Declaration was executed on the 16fh day of August
2017.

Kent Gibson

Digitally signed by Kent Gibson
DN: cn=Kent Gibson, o=Forenslc
Audio, ou=Soundesign,
emall=kent@kentgibson.com, c=US
Date: 2017.08.1617:11 JO-0800'

Kent Gibson
Ft) rensicAV.com

Forensic Declaration 8/16/17

♦

KENT

Phonc:323-851 -9900 kcnt@kcnigibson.com

G I BSON

JP

F o re n s i cAV.co m
511 North Orange Drive. Los Angeles, CA 90036

Websites: ForensicAV.com, Soundesign.org, ForensicAudio.org
Experienced in and equipped for:
Fade) Recognition. Voice Identification, Authentication, Restoration, Enhancement, Audio Work
• EDUCATION - B.A. Yale University (communications) M.A. from Stanford University Film School (Dept, of
Communication). Audio Forensics Classes at University of Denver. .ESA, Inc, AES, ACEFI, SpccchPro.
• COMPANIES - Owner ForcnslcAV.com- specializing in enhancing audio and video for use in courtroom situations. Also
specializes In Voice Identification and Facial Recognition.. In business for 20 years. Former contract Forensic Audio and Video
Examiner for LA County Sheriffs Department. Regular clients include the US Secret Service, the FBI, LA Superior Court, IRS. DOJ,
USES, LA Public Defender's Office, LA County Sheriff, Pasadena PD Homicide Assaults, Santa Clara Sheriffs Dept, Santa Rosa
County. San Bernardino County Sheriffs Department and many private law offices and various other courtroom representatives. On
Ute Certified Expert Witness list as AudloA'tdro Forensic Examiner for LA Superior Court, Co-Founder and past President.
Cosmos Studios. Owner of Sonndeslgn. Mr, Gibson was also a founding partner in Rosebud Films.
• PUBLICATIONS - (not all peer reviewed) “FORENSIC AUDIO - MYTHS. PROMISES AND REALITIES IN THE AGE OF CSI" FORENSIC MAGAZINE 2009, AUDIO ENGINEERING SOCIETY 33rd CONFERENCE IN FORENSIC AUDIO, DENVER COLORADO, JUNE 57,20OT CAUGHTRED HANDED -Atotb Feftmit IVorbflow (JA FS)~ acquisition through rnhonrcmrvit ofcovert ereondings ofnmiy ormt/td
tstispoai. By Kent Gibson, t-'occnsirAiniin.orx AFT AUDIO—AMERICAN FILM INSTITUTE, “Judging the Forensic Aultimttdty of Digital Audio
Files"-DOJ. OFFICE OF JUSTICE PROGRAMS 2009. “Newest Teehnolo® In Forensic Audio" Presented by Kent Gibson ofForensie Audio AUDIO ENGINEERING SOCIETY KCOCOtN. Keynote Speaker - World College of Forensies 2011 Chongqing, China. Expert In Facial Recognition
“Billy the Kid - New Evidence" 2 hour special on National Geographic Television
• TESTIMONY, SAMPLE Depositions A Deelaiaiions -2 years LA Sup Court - Lonnie Franklin (Gritn Sleeper) Serial killer ease -“FBI, Lake County
Prosee, Atty- People v. Engellca Castillo, Jhttinez v. City of Chieago, People v. Sostre, People v. Laura Fogieman-Vittson, Hale v. Howard (St. Louis),
People v. JR Bolds, People v. V, A. Gebrcsciassie, LA Alt Pub. Dcfendo -People V. Terence Boyd (3x - Authentication), Daniel Horowitz. Me) Gilson
v. Oksana Grigorieva (Voice ID, Authentication), Gcragos & Geragos “Arriaga v BNSF Railroad Accident recreation, Gomez V Evans Accident.
Recreation 2010. Todd v. Coast National Insurance el ai SBSC Cast # CIV SS80I683 - Archtt Norris, For the People, LA County Sheriff. Compton
CA. 2009, LASC Case # BC369962 Tharpc & Howell, Cause 0 2i09-CV-004J McCaa v. Easterling. Bryan TX. Care # 04FO939 Cos. Care # 85V0823
Peretz, Oulntana V Lucas - Maneini A Assoc., People v. Damiano, Case # LC079209 - Carlin v. Panorama, Case #07-223-615 Agtr v. Hager. US v.
Goodwin Care #559-331*8155. Marrbiea V. Brawneo Const.. Case #00404906 - Compendia V Longoria, Case &GA02516 People V. Jnng Min Kang.
Core # 07272607 Pasadena POM PD #378921 -LA Pub. Defender, File# 9002-82-794! Rcichell v. CuyofLA Police. Mr Gibson tuts testified more
than 50 times, l ie has testified on Voice ID In State eeurt 20 times and In Federal Court three times.
• AWARDS - Winner - Prime Time Emmy Award (Special Achievement) - PBS series COSMOS. Nominee 2004
Emmy A ward a* Executive Producer for Connie Journey * The Voyager Interstellar Mission and Message (A&E), Sound
Designer and Mixer 2003 Doc Emmy - Galileo, Battle for the Heavens - NOVA, Grammy Award Citation - Gimme Some Truth,
the Matting of John Lennon's Imagine Album - long form video. Grammy Award Long Form Videodisk - Physical starring
Olivia Ncwton-John and Grammy Winning Long Form Video The Heart of Rock & Roll, Starring Huey Lewis & The News,
Grammy Award Citation Rod Stewart - long form video. Multiple Clio Awards and other Emmy Nominations.
• KXF.CtinVF. PRODUCER - Cosmic Africa - documentary feature (2006). Lost Dinosaur* #f Egypt documentary feature (A&E), Cosmic
Journey, the Voyager Interstellar Mission and Message (A&E), The Best of COSMOS (PBS) Producer-Directot,
• SOUND DESIGNER & MIXER - Numerous feature films, Including two Disney Features, and hundreds of television shows.

• ORGANIZATIONS - American College of Forensic Examiners International, Director's Guild of America, West, (UPM and
Director) NAR AS, SMPTE, Audio Engineering Society, ATAS, IATSE 695 & 700 (inactive), NABET (Inactive). Board of
Directors • National Parkinson Foundation, I.A., Chairman of the Board, ETC - Ensemble Theatre Company.

6' 1
l r|
Audio
\ U / Engineering

iilp' Society

Forensic Declaration 8/16/17

APPENDIX D
Pictures of transcript of record dated 14th June 2018, Volume II for 1.18.17.
There is no authorship designation on first page.
Lines 11 and 11.5 were removed from transcripts, but are added on motion, that Hearing
Judge admitted thousands of pages of EXHIBIT 1.2 without any consideration of rules of evidence.
Page 3 is 11-71 of the transcript, swear-in is disputed. Line 7-8.5.
Page 4-5 is 11-192, the last page, indicating there is no certification page.
Clerk should inform Respondent if a different set is presented.

it

1

STATE BAR COURT

21

OF THE STATE OF CALIFORNIA

3

HEARING DEPARTMENT - SAN FRANCISCO

4
5|in the Matter of:
61 SANJAY SHARDWAJ, ESO.,
7j

Respondent.

)
)
)
)
>

Case No. 14-O-0O848-PEM
VOLUME IT

6
9

transcript of proceedings
BEFORE THE HONORABLE PATRICE E. MCELROY
WEDNESDAY, JANUARY 18, 2017
180 HOWARD STREET, STH FLOOR
II
SAN FRANCISCO, CALIFORNIA 94105
12 APPEARANCES:

10

13| For the State Bar :
14
15
16
1TJFor the Respondent:
18
19

ROBIN B. BRUNS, ESQ.
The State Bar of California
180 Howard Street
Seventh Floor
San Francisco, California
94105
SANJAY SHARDWAJ, ESQ.
Law Offices of Ssnjay Bhardwal
44663 Japala Place
3
Fremont, Californio 94539
(510) 207-8283

20
21
22
23
24
25

Version June 14, 2018

l

11-16
1

MR. BHARDWAJ:

2

THE COURT:

Well/ it has a lot of hearsay,

I understand that, but hearsay is

3|allowed is this court.

4

MS. BRUNE:

Also cite to 6049 of the Business and

5| Professions Code, your Honor.
6

THE COURT:

So, anyway, at any rate, it’s

7admitted.

8]

MR. BHARDWAJ:

9

MS. BRUNE:

Your Honor, that was the —

That’s 6049,2.

1° THE COURT: Don't argue with me.It's admitted,and let's move on
*
12 JAnd the Court is also going to adroit 1.2. We did judicially
Jnotice it. I'm admitting the entire thing.
12
MS. BRUNE: Thank you.
13[BY MS. BRUNE:

14 L

!

Mr. Thoxndal, I'd like to direct your attention to page

1SJfour, but I’m going to back up a little bit,

1 just want to
16 hack up to page one, to establish that page four is part of
17 Mr. Bradley's opening statement.
Yes.

19 Q

Okay.

So, on page four, at line six to eight, if you

20|recall, what was Mr. Bradley’s indication to the Court as to
21 Respondent's income?

22 A
9
'«■ "'S

That
Mae eight.

s'!

shai^w9l'S income should be 12,250 per month,
to page 111 of the same exhibit, 1.3, and

&

11-71

2

THE CLERK:

AFTERNOON session
—0O0—
Back on the record.

3

THE COURT;

Back on the record, resuming with the

1

4 direct of Mr. Thorndal.
PAUL THORNDAL - STATE BAR'S WITNESS S
PREVIOUSLY SWORN DIRECT EXAMINATION

«

This is reporter's

7
8 in occurred i n

actwl trial on this day for this witness.

(RESUMED)

9 BY MS. BRUNE;
10 Q

Thank you, Mr. Thorndal.

Before the break, we were

11 getting into the subject of your pleadings related to the
12 enforcement of the original judgment, and we spoke earlier
13 about your obtaining the orders of October 10th that
14 Respondent was to vacate the home, and we're backing up a
15 little bit to the pleadings in support of that.
16 A

Yes.

17 q

Okay.

So we were at State Bar Exhibit 1.2, page 3229,

18 your request for possession and; order — "OST" is "order to
19 show cause"?
20 A

Yes

21 0

Okay.

- "OST," "order shortening time."
And we reviewed earlier the transcript of

22 September 26, 2012, where the Court basically appointed
23 Blaine Berlin White and told Respondent that it would be a
i

24 final order on the sale of the home.

....

- *f' • •

'-•Vw* w

. 7 .*

*.

Is that correct?

-

Sffisr-..
- ' ' ,V''
't

!

Hii:

mmm C,::/
mm

!
1
1
3
4
5.

MR.
TH£ COUR?

K

31-392

' ^.ay
MS, BRuns.
■
(?Jroeeedi ngs
v«a(.
cecesseao
Vo^r Bonpr.

6
7
8
9
10
il
12
13
14
15
16
17;
18
19

!
i

20
21
12
5

J0

APPENDIX E
CDs sent by State Bar Court in possession of Petitioner. First page shows
handwritten identification over which the cover is pasted, showing authenticity.
As reported by Kent Gibson, expert, the page 2 CD is different with initial testing
by clerk omitted. Any lab in today's digital age will show tampering, present in both.

3 r1:
to

*;*?? piAYt^ >WT'*!Ll0fT«# B£COBO VI*

0p©r>

sff^srs^Sfftxss--’

th.r^o^O

COP^

•""L’SSS*
W

&"'• •;?• '

APPENDIX F
Rulings from the State's highest court establishing jurisdiction of US Supreme
Court to review shocking conduct in an attorney discipline matter in California.

SUPREME COURT

APR 2 9 im

State Bar Court No. 14-0-00848
Jorge Navarrete Clerk

S256601
Deputy

IN THE SUPREME COURT OF CALIFORNIA
En Banc

In re SANJAY BHARDWAJ on Discipline.
The Motion for a New Trial and/or Alternative Relief filed January 16, 2020 is
denied.
The clerk of this court is directed to file the Motion to Dismiss submitted to this
court on July 3, 2019. The Motion to Dismiss is denied.
The Petition for "Rehearing is denied.

CANTIL-SAKAUYE

ChiefJustice

APPENDIX G
The State Bar Court's Review Dept Decision. Note how matters of grave
importance regarding forgery committed in CDs and false transcripts are reduced
as mere footnotes. Also reconsideration is denied, yet Review Dept, corrects on
Petitioner's pleadings. Forged CD with inaudible audio is used to determine that
witnesses are sworn in. The panel never considered PhD Professors' determination
made with 100% certainty.

FILED
JUN - 5 2019
STATE BAR COURT
CLERK'S OFFICE
LOS ANGELES

STATE BAR COURT OF CALIFORNIA
REVIEW DEPARTMENT
En Banc
In the Matter of

)

SANJAY BHARDWAJ,

)
)
)

Case No. 14-0*00848

)

State Bar No. 257780.

ORDER DENYING
RECONSIDERATION AND
MODIFYING OPINION

On May 13,2019, Sanjay Bhardwaj filed a motion for reconsideration of the opinion
filed on May 1, 2019. Briefs in opposition by the Office of Chief Trial Counsel and a Reply by
Bhardwaj were filed in response. After careful consideration, the motion for reconsideration is
denied because (1) there are no new or different facts, circumstances, or law presented, and
(2) the motion does not present any errors of fact or law.
We note, however, that rule 5.104(H) of the Rules of Procedure of the State Bar of
California regarding judicial notice cited by Bhardwaj in his briefs and referenced in our opinion
at footnote 3 was cited in error. Rule 5.104(H), as currently written, did not exist in the Rules of
Procedure in effect at the time of tire trial in this action. It is ordered that the opinion filed on
May 1,2019, which was not certified for publication, be modified as follows:
On page 3, footnote 3 is modified to read: “In his opening and rebuttal briefs, Bhardwaj
argues that the documents relied upon by this court were not properly authenticated.
Upon review, this court finds that all documents relied upon in this opinion satisfy
Evidence Code sections 450, et seq. and the Rules of Procedure then in effect, rule
5.104(C) and (D).”

This modification does not alter any of the factual findings or legal conclusions set forth
in the opinion, and it does not extend any deadlines. (Cal. Rules of Court, rule 8.264(c).)

PURCELL
Presiding Judge

-2“

PUBLIC MATTER—NOT DESIGNATED FOR PUBLICATION
Filed May 1,2019

STATE BAR COURT OF CALIFORNIA
REVIEW DEPARTMENT
In the Matter of

)

SANJAY BHARDWAJ,

)
)

)
A Member of the State Bar. No. 257780

Case No. 14-0-00848

OPINION AND ORDER
[As Modified on June 5,2019]

)

This matter concerns Sanjay Bhardwaj’s egregious misconduct stemming from his
divorce from Anupama Pathak (Pathak). With his conduct being described by a superior court
judge as “absolutely outrageous,” Bhardwaj was declared a vexatious litigant by the Alameda
County Superior Court in 2013. Nevertheless, he continued to use the courts to relentlessly bully
his ex-wife. In 2014, a court stated, “[Bhardwaj] continues to recycle the same unmeritorious,
and repeatedly rejected arguments.” As a result of his misconduct, Bhardwaj has been
sanctioned more than $140,000,
In 2017, the Office of Chief Trial Counsel of the State Bar (OCTC) charged Bhardwaj
with 13 counts of misconduct. After five days of trial, the hearing judge found him culpable of
10 counts: (1) failing to report judicial sanctions [three counts]: (2) maintaining unjust actions;
(3) failing to support the laws: (4) moral turpitude [two counts]; (5) failing to maintain respect
due to courts and judicial officers [two counts]; and (6) encouraging the commencement and
continuance of an action from a corrupt motive. The judge found significant harm, a pattern of
misconduct, and indifFerence in aggravation, with no factors in mitigation. The hearing judge
described Bhardwaj as “unapologetic” and “relentless,” and recommended disbarment.

Bhardwaj seeks review. He requests dismissal, arguing, among other things, that OCTC
presented insufficient evidence to establish culpability for any charge, that the State Bar lacks
jurisdiction over his conduct, and that he was merely trying to protect his property rights. This is
Bhardwaj’s first discipline since he was admitted to practice in 2008; however, he began his
misconduct only a year after he became a member of the bar.
Based on our independent review (Cal. Rules of Court, rule 9.12), we agree with most of
the hearing judge’s culpability and aggravation findings. We also find that Bhardwaj presented no
evidence to mitigate his disruptive and harmful misconduct, and appears likely to continue such
behavior in the future. We recommend disbarment as the only discipline adequate to protect the
public, the courts, and the legal profession.
I. BACKGROUND
The underlying lawsuits arose from Bhardwaj ’s divorce. The hearing judge’s 43-page
decision provides a detailed summary of the case’s procedural history as well as the legal and
factual issues involved.1 We adopt those findings, except where noted, and summarize those
relevant to our anal ysis below. For the most part, ho wever, the specific facts of the divorce are
not material to whether Bhardwaj is culpable as charged in the amended Notice of Disciplinary
Charges (NDC), whether any misconduct is aggravated or mitigated, and whether we should
affirm tire discipline recommendation. Instead, the pertinent facts are those demonstrating
Bhardwaj’s unreasonable and unethical pursuit of his grievances, the significant harm he caused
to his ex-wife, the public, the profession, and the administration ofjustice, and his lack of insight
into his misconduct.
i

Bhardwaj argues in his rebuttal brief that he did not get a “chance to defend” against
OCTC’s allegations during the disciplinary hearing due to “failed service on trial brief and
simultaneous submission on closing brief.” However, the record reveals that the hearing judge
provided Bhardwaj with ample opportunity to defend the charges. We give great weight to the
judge’s findings based upon the parties’ written arguments and testimony at the disciplinary
hearings. (Maltaman v. State Bar (1987) 43 Ca!.3d 924,932.)
-2-

II, JUDICIAL SANCTIONS (COUNTS ONE THROUGH THREE) AND
EMPLOYMENT STATUS (COUNT EIGHT)2
A.

FACTUAL B ACKGROUND
As part of the marital dissolution proceedings* on July 7, 2009, Bhardwaj filed an Income

and Expense Declaration in which he reported his monthly income as $11,600 (First Income and
Expense Declaration), But on July 16,2009, Bhardwaj’s employer notified him by letter that he
would be laid off in two months.
In October 2009, the Alameda County Superior Court entered a status-only judgment
dissolving the marriage of Pathak and Bhardwaj. Reserved financial issues were then tried in
two separate proceedings before Judge Dan Grimmer (child support and permanent spousal
support) and before Judge Stephen Pulido (division of the parties’ assets).
On October 5,2009, Bhardwaj lost his job. This was also the first day of the spousal
support hearing before Judge Grimmer. The hearing continued for three consecutive days.
Despite having already lost his job, Bhardwaj stipulated during trial that his income was $12,263
per month and testified that he receives $4,600 in net income and grosses $12,263 per month
(answering the questions in the present tense).
During the hearing, still unaware that Bhardwaj had lost his job, Pathak argued that
Bhardwaj understated his earnings by failing to include in his income a 2008 bonus he had earned.
Judge Grimmer ordered Bhardwaj to produce his 2008 tax return, which revealed the bonus,3
In response to Judge Grimmer s tentative decision holding that Bhardwaj was not entitled
to spousal support and that he understated his income, Bhardwaj filed for modification of child
2 Because count eight relies on the same facts as counts one through three, it is taken out
of order and discussed at this point in this opinion.
3 In his opening and rebuttal briefs, Bhardwaj argues that the documents relied upon by
this court were not properly authenticated. Upon review, this court finds that all documents
relied upon in this opinion satisfy Evidence Code sections 450, et seq. and the Rules of
Procedure then in effect, rule 5.104(C) and (D).
-3-

custody and support based upon his unemployment, attaching two letters from his employer.
Given Bhardwaj’s delayed notice of his job loss, Judge Grimmer found Bhardwaj’s actions to be
strategic and did not grant him a modification of support because, “in not bringing [the
unemployment issue] to both the court's and [Pathak’s] ‘direct’ attention, [Pathak] was not
permitted to inquire into and the trier of fact was depri ved of knowledge of the circumstances
surrounding [Bhardwaj’s] loss of employment.” Judge Grimmer indicated that “in a sense,
[Bhardwaj] ‘laid in wait’ for the last possible opportunity to bring up and argue this issue,”
Judge Grimmer sanctioned Bhardwaj $1,500 under Family Code section 2107, subdivision (c),
for understating his earnings in his spousal support trial by not including his bonus in his Second
Income and Expense Declaration. Bhardwaj appealed.
At the beginning of the second trial for division of assets, the parties agreed that Judge
Pulido would also hear Bhardwaj’s request to modify Judge Grimmer’s permanent spousal
support ruling. During the hearings before Judge Pulido, Pathak requested sanctions under
Family Code section 271, this time based upon the amount of time and money spent litigating
against Bhardwaj’s request to modify Judge Grimmer’s ruling, which was only necessary
because Bhardwaj did not affirmatively apprise Judge Grimmer of his unemployment status until
after the matter was submitted for decision. At the hearings, Bhardwaj admitted that his motive
in failing to disclose his employment status was strategic, stating, “Your Honor, if you look at
Judge Grimmer’s statement, I did not disclose the employment situation. He took it as part of
my strategy, which is my right. I want to impute my income at trial.”
On July 2,2010, Judge Pulido issued a statement of decision in which he sanctioned
Bhardwaj $15,000 for the nondisclosure of his unemployed status. In that statement of decision.
Judge Pulido called Bhardwaj’s conduct “shocking” and stated that it “frustrated the policy of the
law to promote settlement of litigation and increased the costs of litigation in this case.” On
-4*

September 30,2010, Judge Pulido issued a single judgment that incorporated the rulings from
both trials, including his $15,000 sanction and Judge Grimmer*s $1,500 sanction against
Bhardwaj for understating his income, Bhardwaj filed three notices of appeal, two based upon
the underlying decisions of both judges and the other upon the denial of a motion for a new trial.
Bhardwaj did not report the $15,000 sanction to the State Bar. It is unclear from the record if he
reported the $1,500 sanction.
On February 28, 2012, the First District Court of Appeal affirmed the trial court’s
sanctions, found that Bhardwaj filed a frivolous appeal for the purpose of delay, and ordered him
to pay $60,000 in sanctions to Pathak and her attorney. The appellate court also ordered that a
copy of its opinion be forwarded to the State Bar for investigation and possible discipline.
OCTC received the sanction report from the appellate court on August 28, 2012, and sent a letter
to Bhardwaj regarding the sanctions order. On March 15,2013, Bhardwaj reported the $60,000
sanction, seven months after it was issued.
On March 10, 2014, Judge Brad Seligman of the Alameda County Superior Court,
sanctioned Bhardwaj $10,500 for his continued recycling of the same unmeritorious and rejected
arguments, requiring multiple hearings on the property issues. On September 28,2015,
Bhardwaj reported Judge Seligman’s sanction to the State Bar, 18 months after it was issued.
B.

CULPABILITY
Counts One, Two, and Three: Failure to Report Judicial Sanctions (Bus. & Prof.
Code, § 6068, subd. (o)(3))4
Bhardwaj is charged with failing to timely report to the State Bar the judicial sanctions

imposed upon him on July 2,2010, February 28,2012, and March 10,2014. The hearing judge
correctly found Bhardwaj culpable as charged in the NDC.

4 All further references to sections are to the Business and Professions Code unless
otherwise noted.
-5-

Under section 6068, subdivision (o)(3), an attorney has a duty to report to the State Bar,
in writing, judicial sanctions against the attorney of $1,000 or more that are not imposed for
failure to make discovery, within 30 days of knowledge of the sanctions. Bhardwaj asserts that
he did not report any sanctions within 30 days of his knowledge of them because he was not
acting as an attorney but was working as an engineer, and because he was represented by an
attorney on July 2,2010. However, an attorney must report any judicial sanction regardless of
whether it is imposed upon the attorney as a party to an action, or for conduct in representing a
party to an action. (In the Matter of Varakin (Review Dept. 1994) 3 Cal. State Bar Ct. Rptr. 179,
188 (§ 6068, subd. (o)(3), applies to sanctions imposed against attorney as party to action].)
The record provides dear and convincing evidence5 that Bhardwaj had knowledge of all
three sanctions against him and did not report them within 30 days. By failing to report the
July 2,2010 sanction ($15,000) and failing to timely report the February 28,2012 sanction
($60,000) and the March 10,2014 sanction ($10,500), he willfully violated section 6068,
subdivision (o)(3). Accordingly, we conclude that Bhardwaj is culpable of failing to report
judicial sanctions.
Count Eight: Failure to Maintain Respect Due to Courts and Judicial Officers
(§ 6068, subd. (b))
In count eight, Bhardwaj is charged with failing to maintain respect due to courts and
judicial officers, as provided in section 6068, subdivision (b). We affirm the hearing judge’s
finding that Bhardwaj is culpable as charged.
The record provides clear and convincing evidence that Bhardwaj misled the court and
opposing counsel regarding his employment status. Pathak filed for divorce from Bhardwaj in
2008. Bhardwaj filed the First Income and Expense Declaration, reporting that he had a monthly
5 Clear and convincing evidence leaves no substantial doubt and is sufficiently strong to
command the unhesitating assent of every reasonable mind. (Conservatorship of Wendland
(2001) 26 Cal.4th 519, 552.)
-6-

income of $11,600, on July 7,2009, On July 16, he became aware that he would be laid off in
October 2009, On October 5, he was officially terminated. Instead of correcting the First
Income and Expense Declaration to disclose his job loss in July, August, or September,
Bhardwaj waited three months to file a new declaration on October 5, which was after the trial
commenced. While he asserts that he did so for strategic purposes, he misled the court by
claiming an income of $12,250 during the trial and through submi ssion of the case.
Bhardwaj argues that the State Bar Court does not have jurisdiction over count eight
because the statute of limitations has expired. Rule 5.21(G) provides, “The five-year limit does
not apply to disciplinary proceedings that were investigated and initiated by the State Bar based
on information received from an independent source other than a complainant.” Here, on
August 22,2012, the appellate court sent the State Bar a referral of sanctions regarding
Bhardwaj, as is required by section 6086.7, subdivision (a)(3).6 An OCTC investigator testified
that upon receiving that referral, OCTC initiated an investigation of Bhardwaj. Referrals by a
court are considered information received from an independent source and not from a third party
complainant, (In the Matter of Wolff(Review Dept, 2006) 5 Cal. State Bar Ct. Rptr. 1,9 [matter
not barred by limitations period because it was initiated by State Bar, not third-party
complainant, after superior court entered sanctions order],) Accordingly, we reject Bhardwaj’s
statute of limitations defense.

6

Section 6086.7, subdivision (a)(3), requires a court to notify the State Bar of the
imposition of any judicial sanction against an attorney, except those for discovery or monetary
sanctions less than $1,000.
-7-

III. COURT OF APPEAL (COUNTS FOUR THROUGH SEVEN)7
A.

FACTUAL BACKGROUND
When the appellate court consolidated Bhardwaj’s three appeals, it ordered that his brief

address only issues arising from the December 30,2010 judgment and the January 7,2011 order.
The court also ordered that he folly comply with the California Rules of Court; and that his brief
contain no more than 9,000 words.
After reviewing his briefs, the appellate court found that Bhardwaj purposely violated its
briefing orders. In his supplemental opening brief and reply brief, Bhardwaj used an extensive
system of abbreviations he created to circumvent the word limitation.8 The true word count
exceeded the designated limit.
The appellate court affirmed the trial court’s judgment and order, concluding that the trial
court did not commit any prejudicial errors. The appellate court also determined that BhardwajSs
appeal was frivolous because “virtually every argument appellant makes indisputably lacks
merit” and was pursued solely for delay.9 For example, Bhardwaj claimed ruling errors that
were induced by his own conduct, he cited to statutes that did not exist, and he misapplied
statutes by ignoring their language and plain meaning. Further, he failed to properly cite to the
record, to summarize his opponent’s position, and to explain the reason the ruling was in error.

7 We adopt the hearing judge’s dismissal with prejudice of count seven as the same facts
support the moral turpitude finding in count six. {Bates v. State Bar (1990) 51 CaL3d 1056,
1060.)
s For example, he created abbreviations by combining two words into one: “Tcourt” for

“trial court,” “OcttriaP’ for “October trial,” “MCOJ” for “miscarriage ofjustice,” and “FRV” for
“fair rental value.” He also incorrectly hyphenated multiple words to reduce his word count,
e.g., “opportunity-to-be-heard” and “change-of-circumstance.”
9 “|A]n appeal should be held to be frivolous only when it is prosecuted for an improper
motive - to harass the [opposing party] or delay the effect of an adverse judgment - or when it
indisputably has no merit - when any reasonable attorney would agree that the appeal is totally
and completely without merit.” {In re Marriage ofFlaherty (1982) 31 Cal.3d 637, 650.)
-8-

B.

CULPABILITY
Count Four: Failure to Maintain a Just Action (§ 6068, subd, (c))
Bhardwaj is charged with maintaining an unjust action by pursuing frivolous appeals and

actions and failing to address the merits of the litigation. We affirm the hearing judge’s
determination that Bhardwaj violated section 6068, subdivision (c).
Section 6068, subdivision (c) provides that an attorney has a duty to counsel or maintain
only those proceedings, actions, or defenses that appear to the attorney as legal or just, excluding
the defense of a person charged with a public offense. The record provides clear and convincing
evidence that Bhardwaj willfully violated this section by filing three meritless appeals of court
orders in the marital dissolution matter. In addition to the numerous errors and shortcomings in
those appeals, Bhardwaj repeated the same arguments that he lost at the trial court level. {In the
Matter ofLais (Review Dept. 2000) 4 Cal. State Bar Ct. Rptr. 112,118, citing Sorensen v. State
Bar (1991) 52 Cal.3d 1036 [attorney’s wasteful, expensive re-litigation of matters previously
finally resolved as violation of § 6068, subd. (e)],) Further, Bhardwaj threatened Pathak that he
would continue to appeal unless she sold him their family home. Accordingly, we find that
Bhardwaj failed to maintain a just action, as charged in count four.
Count Five: Failure to Comply with Laws (§ 6068, subd, (a))
Bhardwaj is charged in count five with a violation of section 6068, subdivision (a), for
using his abbreviation system when filing his briefs, in violation of rule 8.204(e)(l) of the
California Rules of Court,10 and for failing to abide by the appellate court ’s March 11,2011
order. The hearing judge found Bhardwaj culpable as charged in count five. We disagree.
Under section 6068, subdivision (a), it is the duty of an attorney to “support the
Constitution and laws of the United States and of this state.” This section is “a conduit by which

10 Further references to rules are to this source.
-9-

attorneys may be charged and disciplined for violations of other specific laws which are not
otherwise made disciplinable under the State Bar Act." (In the Matter ofLilley (Review Dept.
1991) 1 Cal. State Bar Ct. Rptr. 476,487,) Lilley recites examples of circumstances that support
a finding of a violation of section 6068, subdivision (a): “where there is a violation of a statute
not specifically relating to the duties of attorneys”; “where there is a violation of a section of the
State Bar Act which is not by its terms, a disciplinable offense"; and ‘Svhere there is a violation
of an established common law doctrine which governs the conduct of attorney s, which is not
governed by any other statute.” (Id.) None of these examples applies here.
Lilley also provides that section 6068, subdivision (a), “clearly does not apply” to a
violation of the Rules of Professional Conduct. (Id.) Similarly, there is no indication that
section 6068, subdivision (a), was intended to refer to the California Rules of Court or a court's
order, or to make disbarment available for violations of either. (Lilley, 1 Cal. State Bar Ct. Rptr.
at p. 484 [“The rules are clearly also not the equivalent of statutes, but “merely supplement the
statutory provisions” citing 1 Witkin, Cal. Procedure (3d ed. 1985) Attorneys § 309, p, 343].)
Although Bhardwaj may have failed to abide by rule 8.204(c)(1) and the appellate court’s
March 11,2011 order, he cannot be culpable of violating section 6068, subdivision (a), because
neither the rule nor the order is a provision of the Constitution or a law of the United States or
California. Therefore, because count five cannot be modified to correct this error of law, it is
dismissed with prejudice.
Count Six: Moral Turpitude (§ 6106)
OCTC alleges, and the hearing judge found that, in addition to a failure to comply with
the law under section 6068, subdivision (a), Bhardwaj’s use of his unique abbreviation system
also represented an act of moral turpitude. We disagree.

-10-

The Supreme Court has described moral turpitude in a criminal context as conduct that
“shows a deficiency in any character trait necessary for the practice of law (such as
trustworthiness, honesty, fairness, candor, and fidelity to fiduciary duties) or if it involves such a
serious breach of a duty owed to another or to society, or such a flagrant disrespect for the law or
for societal norms, that knowledge of the attorney's conduct would be likely to undermine public
confidence in and respect for the legal profession,” (In re Lesansky (2001) 25 Cal 4th 11,16.)
In a civil context, moral turpitude “means, in general, shameful wickedness—so extreme a
departure from ordinary standards of honest [jr/c], good morals, justice, or ethics as to be
shocking to the moral sense of the community . It has been defined as an act of baseness,
vileness, or depravity in the private and social duties which one person owes to another, or to
society in general, contrary to the accepted and customary rule of right and duty between
people.” (Black’s Law Diet,, 7th ed. 1999) p. 1026, col. 1, quoting 50 Am, Jur. 2d Libel and
Slander sec, 165, at p. 454 (1995).)
While use of abbreviations is common and often appropriate in legal writing in this court
(e.g., NDC [Notice of Disciplinary Charges], OCTC [Office of Chief Trial Counsel], CTA
[Client Trust Account]) and in courts of record (e.g., JNOV [Judgment Notwithstanding the
Verdict), MSJ [Motion for Summary Judgment], LASC [Los Angeles County Superior Court]),
it is clear that Bbardwaj exceeded all bounds of normal abbreviating to accomplish his improper
goal of falling below the word count imposed by the Court of Appeal. In doing so, the Court of
Appeal noted that he “trifl[ed] with the court.” But his actions did not rise to the level of moral
depravity that accompanies a finding of moral turpitude. Rather, he was too clever by half, and
our finding of bad faith in aggravation for violating the spirit of the Court of Appeal’s order
appropriately resol ves the issue. Because no set of facts can be produced that could properly
plead moral turpitude for the misconduct alleged, count six is dismissed with prejudice.
-11-

KARL WARREN BUILDING
350 McALLlSTI-R STREET
APRIL BOELK

SAN FRANCISCO. CA 94102

AUTOMATIG APPEALS SUPERVISOR

(415) 865*7000

Supreme (fUmrt of California
JORGE E. NAVARRETE
CLERK AND EXECUTIVE OFFICER
OF THE SUPREME COURT

May 11,2020
Sanjay Bhardwaj
2030 Laurel Canyon Court
Fremont, California 94539
Re:

S256601 - Bhardwaj on Discipline

Dear Mr. Bhardwaj:
No action may be taken on your petition for rehearing of state bar discipline, received
electronically on May 10, 2020. The order denying your petition for rehearing of state bar
discipline on April 29, 2020 in the above-referenced matter was final forthwith and may not be
reconsidered. Please rest assured, however, that the petition, and the contentions made therein,
were considered by the entire court, and that the denial expresses the decision of the court on this
matter.
Very truly yours,
JORGE E. NAVARRETE
Clerk and
Executive Officer of the Supreme Court

By: F. Jimenez, Assistant Deputy Clerk
cc:

Rec.

IV. COURT ORDERS (COUNTS NINE THROUGH THIRTEEN)
A.

FACTUAL BACKGROUND
In the marital dissolution judgment, Judge Pulido ordered that the marital real property be

sold. The appellate court affirmed this judgment, and the case was transferred to the trial court
for enforcement. Thereafter, Bhardwaj attempted to re-litigate issues already resolved by the
judgment by riling numerous pleadings and engaging in multiple legal actions, and pursuing
appeals to the California Supreme Court and the United States Supreme Court that were
repeatedly denied.
As a result of Bhardwaj’s actions, on July 2, 2013, Judge Brad Seligman declared
Bhardwaj a vexatious litigant and stated that he “repeatedly filed unmeritorious motions,
pleadings, or other papers and engaged in frivolous litigation tactics.” Judge Seligman stated
that since Judge Pulido’s order to sell the marital real property, Bhardwaj “(1) has riled at least
twelve pleadings and/or objections that attempted to re-litigate the order... and, particularly, to
delay the sale of the [property]; (2) has initiated seven appellate actions, as well as three petitions
in the California Supreme Court, which have been unsuccessful; and (3) has filed numerous
unsuccessful challenges to Judge Stephen Pulido.”
1. Paul Thorndal Provided Persuasive Testimony
At the disciplinary hearing, Pathak’s counsel Paul Thorndal, an experienced family law
practitioner, addressed Bhardwaj’s arguments.11 The hearing judge found Thomdal’s testimony
to be credible, a finding to which we afford great weight, (hi the Matter ofRespondent H
(Review Dept. 1992) 2 Cal. State Bar Ct Rptr, 234,241 [great weight given to hearing judge’s
11 In his opening brief, Bhardwaj argues that the transcript of the disciplinary hearing is
inaccurate and testimonies of Thorndal and another witness who testified at the disciplinary
hearing cannot be relied upon because the witnesses were not sworn in. On June 8,2018, the
Hearing Department provided the Review Department with a stipulated transcript which was
relied upon in this decision. Further, we have listened to the audio recording of the proceedings,
and have determined that the witnesses were in fact sworn in at the hearing.
-12-

credibility findings] . We rely on the hearing judge because she is in the best position to assess
the credibility of witnesses. (McKnight v. State Bar (1991) 53 Cal.3d 1025,1032 [hearing judge
best suited to resolve credibility questions, having observed and assessed witnesses’ demeanor
and veracity firsthand].)
Thomdal discussed the reasons Bhardwaj’s claims lacked merit and instead were
intended to delay rulings against him to force Pathak to settle.12 For example, Thomdal
explained that Bhardwaj attempted to appeal the non-appealable enforcement orders requiring
the sale of the family home and distribution of the proceeds. Further, Bhardwaj repeated the
baseless claim that the family court lacked jurisdiction over the family home because it was no
longer community property due to refinancing. After the dissolution judgment was affirmed,
final, and enforceable on October 9,2012, Bhardwaj then raised the meritless and untimely
argument that the court lost j urisdiction over the family property because Bhardwaj conveyed his
share of the joint tenancy to himself as the trustor of the Bhardwaj Family Trust.
2. Bhardwaj Attempted to Circumvent Orders of the Superior Court
The court ordered the sale of the family home and appointed a real estate agent to
conduct it. Bhardwaj wrote letters to that agent threatening litigation if she attempted to sell the
home. After she disclosed the threatening letters, Bhardwaj again attempted to delay the sale by
filing pleadings against the real estate agent, claiming that she violated attorney-client privilege
by her disclosure, even though Bhardwaj sent opposing counsel and Pathak those same letters.
Bhardwaj raised peremptory challenges to Judge Pulido five times, even though the judge
had already issued a rul ing on the merits of the matter. Therefore, such chal lenges were
improper. Bhardwaj also recorded a lis pendens against the marital real property without

!2 The appellate court stated “virtually ever)' argument [Bhardwaj] makes indisputably
lacks merit.” Bhardwaj filed numerous pleadings and appeals based upon meritless arguments.
In the interest of brevity, we have only included the most egregious examples.
-13-

notifying Pathak, Thomdal, or the court, creating a cloud on the title that prevented the sale.
This resulted in further delay until the lis pendens was expunged. Bhardwaj then filed a
meritless claim of possession, which was dismissed by the court.
Despite the court’s order to vacate the home, Bhardwaj had to be evicted on December 4,
2012, and he left the home in a deplorable condition. He also threatened to sue First American
Title Company if it distri buted the funds from the sale of the home. First American Title
Company filed suit to obtain a court order to distribute the hands, naming Bhardwaj and Pathak
as defendants. Bhardwaj filed for removal of the proceedings to federal court on several
grounds, but the district court found no basis for removal and remanded the case to the superior
court. This caused additional delay because the superior court declined to issue any orders
pending the notice of removal, Bhardwaj appealed to the Ninth Circuit, which dismissed the
appeal because the “order challenged in the appeal is not reviewable.”
Bhardwaj’s August 16,2013 69-page complaint in the United States District Court
against 13 defendants who were involved in the court-ordered sale of the family home (including
Pathak, her attorneys, and the superior court judges) was dismissed by the district court on
November 7,2013, on various grounds, including “(actions] in which a party essentially asks the
federal court to review the state court’s decision and afford that party the same remedy he was
denied in state court” are barred under the Rooker-Feldman doctrine (D.C. Court ofAppeals v.
Feldman, 460 U S, 462,482-486; Hooker v. Fidelity Trust Co,, 263 U.S. 413,415—416).
Bhardwaj appealed to the Ninth Circuit on December 4,2013. He was denied again on
September 2, 2016.
On January 21,2014, the trial court received the funds from the title company. However,
Bhardwaj still filed a request for default judgment against the title company. The court ordered
the funds to be distributed. In 2014, the superior court stated “the record in this matter is replete
-14-

with orders that Bhardwaj has frustrated and refused to obey. Bhardwaj’s recalcitrance is not
simply a relic of the past. Orders exist with which Bhardwaj has yet to comply.” Bhardwaj Js
actions put enormous strain on Pathak, both emotionally and financially. Thomdal testified that
Pathak would be in tears when she would have to pay another $ 10,000 for him to respond to
motions that they had just argued and won because Bhardwaj continued to argue the same issue,
each time requiring a response from Thomdal.
Attorney Paul Sucherman, a disinterested witness, credibly testified at the disciplinary
hearing as a family law expert. He opined that Bhardwaj made arguments that were contrary to
well-settled legal principles and that he made every effort to frustrate the court and delay the
enforcement of the court’s orders.
Bhardwaj’s own emails demonstrate his intent in the underlying divorce proceedings.
After just losing an appeal, Bhardwaj emailed Pathak stating that he would continue to appeal if
she did not allow him to purchase the family home. In September 2012. Bhardwaj sent emails to
the court-appointed real estate agent threatening her and giving her a Notice of Loss of
jurisdiction in an effort to create confusion and block the sale of the home. He also sent an email
to opposing counsel indicating his refusal to accept the September 26,2012 court order regarding
the sale of the home. In January 2013, Bhardwaj sent a letter to opposing counsel threatening
suit if she sold the family home. In April 2013, Bhardwaj, again to cause confusion and delay
the sale of the home, sent an email to First American Title Company stating that the court lost
jurisdiction over the home because he conveyed his share of the joint tenancy to the Bhardwaj
Family Trust.
Bhardwaj lost the home when the judgment was issued on September 30,2012, and lost
all appellate avenues on October 9. Despite all of the above, however, he has shown that he is
unlikely to stop his frivolous litigation. As recently as September 30,2016, Bhardwaj filed a
-15-

petition for rehearing of the Ninth Circuit’s memorandum affirming the district court’s dismissal
of his lawsuit against the 13 defendants. The court denied his petition on October 31, and
Bhardwaj filed a motion to stay the mandate on November 4. This motion was denied.
In summary, between July 10, 2012 and December 14,2014, Bhardwaj filed the
following pleadings, motions, or appeals and took the following actions:
1. Motion for Realty Division Under Reserved Jurisdiction, Stay, Move Venue and
Continue Hearing, filed July 10,2012;
2. Objections to Minute Order for September 26,2012 Hearing, filed October 1, 2013;
3. Notice of Appeal, filed October 3,2012, which was then lodged October 9,2012 and
dismissed on February 7, 2013;
4. Request for an Order Requesting a Stay, filed October 12, 2012;
5. Objections to the Order After Hearing, filed October 16,2012;
6. Request for Temporary Emergency Court Order, filed October 17,2012;
7. Amended Notice of Appeal, filed October 17, 2012 and dismissed February 7,2013;
8. Petition for Writ of Stay, filed October 19,2012;
9. Amended Ex Parte Request for Reconsideration of Temporary Orders (Stay) and for
Order Alleging Mistake of Law/Fact; Arguments in Support of OSC; and Objections
or Order After Hearing re Possession and Writ of Execution, filed October 22,2012;
10. Petition for Review from Interlocutory Order on Summary Denial of Stay Pending
Appeal, filed October 30,2012 (California Supreme Court No. S206287);
11. Application for Stay from Denial of Stay Pending Appeal from the California
Supreme Court, filed November 8,2012, in Bhardwaj v. Paihak, United States
Supreme Court No. 12A500;
12. Claim to Right of Possession, filed November 29,2012;
13 . Motion to Quash Writ of Possession, filed December 3,2012;
14. Objections to Striking Claim of Possession, filed Decembers, 2012;
15. Complaints for Disqualification of Judge Pulido, filed August 1,2011, March 1,
2012, October 24,2012, October 26,2012, February 7,2013;
16. Responsive Declaration to Request for Order, filed April 16,2013;
17. Bhardwaj v. Paihak el at, filed August 16, 2013, in the United States District Court
for the Northern District of California, No. 13-cv-03807;
18. Notice of Filing Notice of Removal, filed August 26,2013, in First American fide
Co. v. Paihak and Bhardwaj. in the United States District Court for the Northern
District of California, No. I3-cv-03947;
19. Federal appeal filed December 4, 2013, in Bhardwaj v. Pathak, el ah, United States
Court of Appeals, Ninth Circuit, No. 12-17553 (12-CV-03807);
20. Federal appeal filed December 14,2013, in First American Title Co. v. Pathak and
Bhardwaj, United States Court of Appeals, Ninth Circuit, No. 13-17553 (13-CV-03947);
21. Bhardwaj’s September 28,2012 email to opposing counsel, indicating his refusal to
accept the September 26, 2012 court order regarding the sale of the marital residence;
22. Bhardwaj’s September 29,2012 email to the real estate agent assigned by the court,
threatening suit if she carried out the sale orders of the court;

-16-

23. December 26,2012 Its pendens recorded against the marital property, which was
expunged by the court on February 8,2013; and
24. December 5,2012 eviction due to Bhardwaj !s refusal to leave the family residence.
The marriage between Bhardwaj and Pathak ended in October 2009, more than nine years
ago. Yet Bhardwaj testified at the disciplinary hearing that he is currently contemplating further
litigation against Pathak.
B,

CULPABILITY13
Count Nine: Failure to Maintain Duty Not to Encourage Action Based on Corrupt
Motive (§ 6068, subd. (g))
OCTC charges, and the hearing judge found, that Bhardwaj violated section 6068,

subdivision (g), which provides that an attorney has a duty not to encourage either the
commencement or the continuance of an action from any corrupt motive of passion or interest.
We affirm the hearing judge’s culpability finding that Bhardwaj violated section 6068,
subdivision (g), as charged in count nine.
Bhardwaj appealed unappealable orders, claimed that the family court lost jurisdiction of
the family property for multiple baseless reasons, and filed pleadings against the court-appointed
real estate agent for violating attorney-client privilege even though she clearly did not owe
Bhardwaj this duty. He appealed all the way to the United States Supreme Court the denial of a
complaint he filed asking the federal court for the same remedies he was denied in state court.
Bhardwaj sent emails to Pathak stating that he would continue to appeal if she did not allow him
to purchase the family home and sent threatening emails to the court-appointed real estate agent
and a letter to Pathak’s counsel threatening suit if she sold the family home.
Bhardwaj again argues that the State Bar has no jurisdiction to discipline him because he
was not a practicing attorney from July 10,2012, to December 14,2013. As noted above, we
13 We adopt the hearing judge’s dismissal with prejudice of counts ten and thirteen as
duplicative of counts nine and twelve, respectively. (Bates v. State Bar (1990) 51 Cal.3d 1056,
1060.)
-17-

reject this argument. Bhardwaj has been admitted to the State Bar since December 2008. On
November 6. 2009. he began representing himself in this matter and has demonstrated a
continuous disrespect for the courts. As Judge Pulido proclaimed. “Mr. Bhardwaj’s conduct has
been absolutely outrageous ... even if [Bhardwaj] wasn’t a lawyer, any person in his position
would know [there] comes a time where you stop.”
Thus, by clear and convincing evidence, Bhardwaj commenced or continued actions and
proceedings from the corrupt motive of harassing Pathak and delaying the enforcement of court
orders, in willful violation of section 6068, subdivision (g).
Count Eleven: Moral Turpitude (§ 6106)
Count eleven charges that Bhardwaj filed multiple pleadings and actions for the improper
purpose of preventing or delaying the sale of the family home or retaliating against others for the
sale of the residence. The hearing judge found that Bhardwaj committed acts of moral turpitude
by doing so and by filing the pleadings and motions discussed in count nine. The court orders
included: the minute order dated September 26,2012; the Findings and Order after Hearing
dated October 10,2012; and the Court’s Emergency Temporary Order dated October 10, 2012,
(to cooperate with the sale of the marital property within two weeks of the date of the Emergency
Temporary Order). We affirm.
Bhardwaj used the judicial system to inflict inordinate litigation costs on his ex-wife to
force her to accede to his demand that she sell him the family home. As a lawyer, Bhardwaj did
not bear litigation expenses, and was able to continue his abuse of the judicial system by
bringing meritless pleadings, motions, and appeals against her. Further, he sent emails to
opposing counsel and to the court-appointed real estate agent, threating lawsuits if they carried
out the sale orders of the court. He also recorded a lis pendens against the property and filed a
claim of right to possession in order to cloud the title and prevent the court-ordered sale. Finally,
-18-

he had to be forcibly evicted from the family residence. This conduct constitutes acts of moral
turpitude. (See Maltaman v. Stale Bar, supra, 43 Cal.3d at pp. 950-951 [noncompliance with
court order supports § 6106 violation if attorney acted in bad faith]; In the Matter of Varakin
(Review Dept. 1994) 3 Cal. State Bar Ct. Rptr, 179.186 [“serious, habitual abuse of the judicial
system constitutes moral turpitude”].)
Count Twelve: Failure to Maintain Respect Due to Courts and Judicial Officers
(§ 6068, subd. (b»
In count twelve, Bhardwaj is charged with failing to maintain respect due to courts and
judicial officers by filing pleadings and taking actions for the improper purpose of preventing or
delaying the sale of the family residence or retaliating against others for that sale, in violation of
court orders to cooperate in the sale. We affirm the hearing judge’s finding that Bhardwaj is
culpable.
Bhardwaj filed pleadings or took actions for the improper purpose of preventing or
delaying the sale of his family home or to retaliate against others for the sale of his family home.
The emails Bhardwaj sent to Pathak, her counsel, and the court-appointed real estate agent
demonstrate that his motive in continuing this onerous litigation was to bully Pathak into selling
him the family home. Bhardwaj threatened Thomdal and the court-appointed real estate agent
with retaliatory lawsuits if they followed the court’s orders. Therefore, by filing the papers and
taking the actions listed above, Bhardwaj failed to maintain respect due to the courts and judicial
officers, as charged in count twelve.

-19-

V, AGGRAVATION AND MITIGATION
Standard 1.514 requires OCTC to establish aggravating circumstances by clear and
convincing evidence. Standard 1.6 requires Bhardwaj to meet the same burden to prove
mitigation.
A.

AGGRAVATION
I, Multiple Acts of Wrongdoing (Std, 1.5(b))
We assign substantial weight in aggravation for Bhardwaj’s multiple acts of misconduct

(In the Matter ofBach (Review Dept. 1991) 1 Cal. State Bar Ct. Rptr. 631, 646-647 [three
instances of misconduct considered multiple acts].)
2. Pattern of Misconduct (Std. 1.5(c))
Bhardwaj demonstrated a pattern of misconduct by repeatedly engaging in vexatious
litigation and committing ethical violations for more than six years. (Std. 1.5(c); Levin v. State
Bar (19S9) 47 Cal.Bd 1140,1149, fii. 14 [citing Lowborn v. State Bar (1987) 43 Cal.3d 1357,
1367 (most serious instances of repeated misconduct over prolonged period of time characterized
as pattern of misconduct)].) Even though he was declared a vexatious litigant in 2013, Bhardwaj
continued his pattern of misconduct to the time of trial. We assign substantial weight to this
aggravating factor.
3. Bad Faith (Std. 1.5(d))
As previously discussed, the record does not provide clear and convincing evidence that
Bhardwaj failed to comply with section 6068, subdivision (a), or that Bhardwaj committed an act
of moral turpitude when he created and used his own system of abbreviations in his opening and
supplemental briefs in order to circumvent the appellate court’s word count limitation. However,
the record does provide clear and convincing evidence that Bhardwaj’s actions were done in bad
14 Rules of Procedure of the State Bar, title IV, Standards for Attorney Sanctions for
Professional Misconduct. All further references to standards are to this source.
-20-

faith, in violation of standard 1.5(d). Bhardwaj implemented the abbreviation system in order to
circumvent the court’s briefing limitations so that he could continue presenting the same
arguments he lost at the trial court level, instead of limiting his brief to new appel late
arguments.15 Bhardwaj testified as such in response to OCTC’s questioning regarding the cause
of misconduct charged in counts five and six. Accordingly, his actions of creating an improper
abbreviation system are aggravating, for which we assign moderate weight.
4. Significant Harm (Sid. 1.5 (j))
Bhardwaj significantly harmed his ex-wife, the public, the legal profession, and the
administration of justice. His relentless litigation inflicted serious financial harm on Pathak,
forcing her to spend considerable time and money defending herself against baseless claims. She
was required to retain an accounting expert at a cost in excess of $ 11,000. In sum, Pathak
incurred between $300,000 and $500,000 in legal fees fighting Bhardwaj. She also suffered
emotional harm. Thomdal testified that she would repeatedly break down in tears when she
learned of additional frivolous filings.
Bhardwaj’s persistent litigation also burdened the court system for manifestly improper
purposes. He used the courts as a means of intimidating and oppressing his ex-wife through
interminable meritless litigation against her, her counsel, the real estate agent, the judges, and
others. We assign substantial weight to this factor in aggravation.
5, Indifference Toward Rectification/Atonement (Std. l,5(k))
Bhardwaj’s misconduct is aggravated by his utter failure to accept responsibility for his
actions and his failure to atone for the resulting harm. (Std. 1.5(k); In the Matter of Katz
(Review' Dept. 1991) 1 Cal. State Bar Ct. Rptr. 502, 511 [law does not require false penitence.
but does require attorney to accept responsibility for acts and come to grips with culpability].)
15 The appellate court stated “virtually every argument [Bhardwaj) makes indisputably
lacks merit.”
-21-

Bhardwaj has expressed no remorse or even recognition of the serious consequences of his
misconduct, He has shown that he is relentless in pursuing unjustified litigation. The most
egregious example of his lack of insight is his motion to stay the mandate filed in the Ninth
Circuit on November 4, 2016—despite the denial of this motion, he testified that he is planning
his next steps in litigation. It is clear that he does not understand his misconduct, We assign
substantial weight to this factor in aggravation.
B,

MITIGATION
At trial, Bhardwaj attempted to present evidence in mitigation- In his opening brief, he

referenced this evidence, including his lack of prior discipline, his cooperation with the State
Bar, the excessive delay by the State Bar, community service, good moral character, no client or
public harm, good faith belief that was honestly held and reasonable, and restitution made
without threat of proceedings. Our review of the record fails to discern sufficient evidence of
any such mitigation.
L Lack of Prior Discipline (Std. 1.6(a))
Lack of prior discipline can be a mitigating factor because it may show that the present
misconduct was an anomaly and therefore not likely to recur. (See Cooper v. Stale Bar (1987)
43 Cal .3d 1016,1029.) However, Bhardwaj’s repetitive vexatious behavior as described above
raises serious questions as to whether his pattern of misconduct will cease. As such, we decline
to find this factor in mitigation.
2. Cooperation with the State Bar (Std. 1.6(e))
An attorney is required to cooperate with the State Bar. (§ 6068, subd. (i).) However, in
certain cases, mitigation credit may be given where an attorney acts to expedite resolution of the
charges by, for example, stipulating to facts and/or culpability. Here, Bhardwaj only provided

-22-

proof that he communicated extensively with the State Bar and filed briefs. This is insufficient
to justify mitigation credit, and we find none for this factor.
3. Excessive Delay by the State Bar of California (Std. 1.6(1))
Our review of the evidence indicates no inappropriate delays by the State Bar. Bhardwaj
claims that certain counts in the NDC violated rules of limitation and, therefore, represented
excessive delays. We have rejected this claim in our discussion above. Similarly, we find no
improper delay by OCTC in investigating and prosecuting this action.
4. Community Service and Pro Bono Work
An attorney’s community service and pro bono work can be a mitigating factor. {Calvert
v. State Bar (1991) 54 Cal.3d 765, 785.) Bhardwaj testified that he offers reduced-fee sendees to
approximately 10 clients who cannot afford to pay his full fee, but he offered no clear and
convincing evidence that this was anything other than an occasional practice. His evidence is
insufficient to justify mitigation for this factor. {Amante v. State Bar (1990) 50 Cal,3d 247,
256-257 [occasional practice of offering pro bono services insufficient to constitute mitigation].)
5. Good Moral Character (Std. 1.6(f))
Bhardwaj seeks mitigation for the fact that OCTC performed a “thorough police check”
and found no criminal record. He further asserts that he has been in the country for 32 years and
has maintained good moral character. This proof is insufficient to find good moral character as a
mitigating factor. (Std. 1.6(f) [mitigation available for extraordinary good character attested to
by wide range of references in legal and general communities who are aware of misconduct].)
6. No Client or Public Harm (Std. 1.6(c))
We have found significant harm to Bhardwaj !s ex-wife, the public, the legal profession,
and the administration ofjustice in aggravation. We decline to find this factor in mitigation.

-23-

7. Good Faith Belief (Std. 1.6(b))
We find no evidence of good faith in this matter. In fact we have found bad faith in
aggravation. We decline to find this factor in mitigation.
8. Restitution Made Without Threat of Proceedings (Std. 1.6(j))
Restitution voluntarily paid may be a factor in mitigation, Bhardwaj claims mitigation
for immediately reporting his sanctions. We have found that he did not timely report three of the
sanctions imposed against him. But “reporting” sanctions is not the same as paying them.
Further, sanctions by their nature are court-ordered and not voluntarily paid. We decline to give
any mitigating credit for this factor.
We have considered and rejected Bhardwaj !s other claims for mitigation, including his
claimed mitigation arising out of the motion in limine regarding the alleged violation of
rule 2302 (disclosure of confidential information by OCTC).
The hearing judge found that Bhard waj did not prove any factors in mitigation. We agree
and affirm.
VI. DISCIPLINE16
We have found Bhardwaj culpable of three counts of failing to report judicial sanctions
(§ 6068, subd. (o)(3)); two counts of failing to mai ntain respect due to the courts and judicial
officers (§ 6068, subd. (b)); failing to maintain a just action (§ 6068, subd. (c)); failing to
maintain the duty not to encourage action based on corrupt motive (§ 6068, subd. (g)); and moral
turpitude (§ 6106.)
Our disciplinary analysis begins with the standards which, although not binding, are
entitled to great weight. (In re SUverton (2005) 36 Cal.4th 81, 91-92.) The Supreme Court has
instructed us to follow them whenever possible. (In re Young (1989) 49 Cal.3d 257,267, fii. 11,)
16 The purpose of attorney discipline is not to punish the attorney but to protect the
public, the courts, and the legal profession. (Std. 1.1(a).)
-24-

We first determine which standard specifies the most severe sanction for the misconduct.
(Std. 1.7(a).) Standard 2.11 provides that disbarment or actual suspension is the presumed
sanction for an act of moral turpitude, di shonesty, fraud, and corruption. “The degree of the
sanction depends on the magnitude of the misconduct; the extent to which die misconduct
harmed or misled the victim, which may include the adjudicator; the impact on the
administration ofjustice, if any; and the extent to which the misconduct related to the member's
practice of law." Either disbarment or actual suspension is also appropriate for maintaining a
frivolous claim or an action for an improper purpose. (Std. 2.9.) The relevant portions of
standard 2.12 provide that disbarment or actual suspension is the presumed sanction for
disobedience or violation of a court or tribunal order related to a lawyers practice of law, the
attorney’s oath, or the duties required of an attorney under section 6068, subdivision (b).
Standard 1.7(a) provides that when two or more acts of misconduct are found in a single
disciplinary proceeding, and different sanctions are prescribed for those acts, the recommended
sanction is to be the most Severe. We find standard 2.11 to be most applicable.
Bhardwaj argues that all charges against him should be dismissed. He maintains that he
is not subject to the court’s jurisdiction and that he is completely free of any wrongdoing. We
reject these arguments. Bhardwaj used his legal knowledge to repeatedly file frivolous actions
and harass his ex-wife, opposing counsel, and a real estate agent. He sought to cloud the title to
the family home to force Pathak to sell it to him. His misconduct went beyond vexatious
litigation as it involved substantial aggravation, including a lengthy pattern of wrongdoing,
significant harm to others, disregard for the court process, and a total lack of insight into his
harmful behavior. And he has failed to establish any mitigation.
Given these circumstances, we conclude that Bhardwaj should be disbarred under
standard 2.11 even though this is his first disciplinary proceeding. (See Lebbos v. State Bar
-25-

( 1991) 53 Cal.3d 37,45 [disbarment for multiple acts of moral turpitude and dishonesty,
including pattern of abuse of judicial officers and court system, no prior discipline]; In the
Matter of Varakin, 3 Cal. State Bar Ct. Rptr. 179 [disbarment for attorney with 30 years of
discipline-free practice who was sanctioned for filing frivolous motions and appeals over 12-year
period, and who lacked insight and refused to change]; In the Matter ofKinney (Review Dept.
2014) 5 Cal. State Bar Ct . Rptr. 360 [disbarment for attorney with 31 years of discipline-free
practice who was culpable of three counts of misconduct in pursuit of multiple unjust and
frivolous actions].)
We find that Bhardwaj is unfit to practice, and we recommend his disbarment. Requiring
him to undergo a frill reinstatement proceeding after he is disbarred is the only measure that can
adequately protect the public, the courts, and the legal profession.17
VII. RECOMMENDATION
We recommend that Sanjay Bhard waj be disbarred from the practice of law and that his
name be stricken from the roll of attorneys admitted to practice in California.
We further recommend that Bhardwaj comply with rule 9.20 of the California Rules of
Court and perform the acts specified in subdivisions (a) and (c) of that rule, within 30 and 40
days, respectively, after the effective date of the Supreme Court order in this matter.
We further recommend that costs be awarded to the State Bar in accordance with
section 6086.10, such costs being enforceable as provided in section 6140.7 and as a money
judgment. Unless the time for payment of discipline costs is extended pursuant to
subdivision (c) of section 6086.10, costs assessed against a member who is actually suspended or
disbarred must be paid as a condition of reinstatement or return to acti ve status,
*

h

Bhardwaj argues certain factual challenges that are not outcome-determinative.
Having independently reviewed all arguments set forth by Bhardwaj, those not specifically
addressed have been considered and rejected as without merit.
-26-

VIII. ORDER OF INVOLUNTARY INACTIVE ENROLLMENT
The order that Sanjay Bhardwaj be involuntarily enrolled as an inactive member of the
State Bar pursuant to section 6007, subdivision (c)(4), effective May 11,2017, will remain in
effect pending consideration and decision of the Supreme Court on this recommendation.
HONK, J.
WE CONCUR:
PURCELL, P. J.
McGILL, J.

-27-

